U.S. Department of Energy
Office of Inspector General




Annual Performance Report FY 2011
Annual Performance Plan FY 2012
            FY 2011 OIG Performance Results
The OIG measures its performance against long-term and annual goals set forth in OIG
planning documents. During this reporting period, the OIG successfully achieved its
FY 2011 performance goals. The following are the specific results:


                                Goal 1
      Promote Presidential Reform Initiatives, Secretarial Mission
                       Priorities, and Congress
Objective 1:
Conduct reviews seeking positive change in the Department relating to the
implementation of Presidential Reform Initiatives, the Secretary’s Mission
Priorities, and the OIG-identified Management Challenges.
Performance Measures:                                                Accomplishments
1a. By the end of FY 2011, complete reviews that address each
    Presidential, Secretarial, and OIG initiative, priority,                 Met Goal
    and/or challenge as identified in FY 2011.
1b. At least 30 percent of inspection reports will address safety
    or security-related topics.                                          Exceeded Goal
            Audits and Inspections                           Investigations
1a.    A total of 68 audit reports were issued                 (Not applicable)
       that addressed the Presidential Reform
       Initiatives, Secretarial Mission Priorities,
       and OIG-identified Management
       Challenges.

1b.    60 percent of inspection reports                        (Not applicable)
       addressed some aspect of safety or
       security-related topics.




                                                                                         2
                          Goal 2
 Improve economy and efficiency, and reduce waste, fraud, and
               abuse within the Department
Objective 2:
Concentrate OIG efforts on issues that have the greatest impact and
usefulness to the Department.
Performance Measures:                                           Accomplishments
2a. Ensure that every performance review includes an analysis
     of program accomplishments and the use of metrics to           Met Goal
     measure results.
2b. Ensure that 57 percent of all performance audits include
     recommendations leading to demonstrable cost savings,        Exceeded Goal
     program efficiencies, and/or funds put to better use.
2c. Complete five follow-up reviews annually to determine the
     status and efficacy of corrective actions.                   Exceeded Goal
2d. By June, 2011, complete an annual risk-based
     programmatic assessment that considers OIG institutional
     knowledge; past program performance; funding levels;         Exceeded Goal
     Presidential, Secretarial, and congressional concerns;
     Recovery Act initiatives; and, input from Department
     program managers.
2e. Ensure 80 percent of all planned performance audits
     address high-risk areas as identified in the OIG annual      Exceeded Goal
     risk-based programmatic assessments.
2f. Ensure that 10 percent of all planned inspections address
     Recovery Act-funded activities.                                Met Goal




                                                                                  3
            Audits and Inspections                             Investigations
2a.   59 performance audits and 5 performance                    (Not applicable)
      inspections completed included an analysis
      of program accomplishments and the use of
      metrics to measure results.
2b.   88 percent of all performance audits                       (Not applicable)
      included demonstrable cost savings,
      program efficiencies and/or funds that can
      be put to better use in excess of $17.8
      million.
2c.   Ten follow-up reviews were completed to                    (Not applicable)
      determine the status and efficacy of
      corrective actions.
2d.   53 risk-based programmatic assessments for                 (Not applicable)
      the Department, NNSA, and program
      activities were completed prior to June 30,
      2011.
2e.   83 percent of planned performance audits                   (Not applicable)
      addressed high-risk and sensitive areas
      identified in the OIG annual risk-based
      programmatic assessments.
2f.   10 percent of planned inspections                          (Not applicable)
      addressed Recovery Act-funded activities.



Objective 3:
Provide timely information to the Department so that prompt action can be
taken to improve program performance.
Performance Measures:                                   Accomplishments
3a. Issue 80 percent of audit reports no later than 60 days              Exceeded Goal
    following receipt of management comments.
3b. Ensure that the average time to issue Investigative Reports
    to Management (IRMs) is 48 days or less following final               Exceeded Goal
    resolution of criminal, civil, and administrative
    investigations.
             Audits and Inspections                             Investigations
3a.   For the audits completed in FY 2011, 93                     (Not applicable)
      percent were issued within 60 days following
      receipt of management comments.

3b.                 (Not applicable)                 IRMs were issued in 17 days, on
                                                     average, following final resolution of
                                                     criminal and/or civil action.



                                                                                              4
Objective 4:
Strengthen financial management and cyber security through completion of
mandatory reviews in accordance with OMB and other applicable
requirements.
Performance Measures:                                   Accomplishments
4a. Complete annually, by the established due date, the
     Department’s Consolidated Financial Statement audits to                 Met Goal
     determine whether the financial statements are free from
     material misstatement.
4b. By September 30, 2011, review the Department’s classified
     and unclassified information security system programs in                 Met Goal
     accordance with the Federal Information Security
     Management Act of 2002.
4c. Initiate 10 “Statement of Costs Incurred and Claimed”
     audits annually to assess internal controls over costs               Exceeded Goal
     claimed by the Department’s major contractors.
            Audits and Inspections                         Investigations
4a.   The Department’s FY 2011 Consolidated                     (Not applicable)
      Financial Statement were issued on
      November 15, 2011, and resulted in an
      unqualified opinion.
4b.   We completed reviews of the Department’s                  (Not applicable)
      unclassified computer information systems
      in accordance with the Federal Information
      Security Management Act of 2002. The
      reviews were completed in October, 2011,
      ahead of OMB’s revised reporting date of
      November 15, 2011.
4c.   We initiated 13 Statement of Costs Incurred               (Not applicable)
      and Claimed audits to determine whether
      the Department's integrated contractors
      were reimbursed for allowable costs
      consistent with their contracts.




                                                                                          5
Objective 5:
Concentrate investigative efforts on allegations of criminal and civil
violations of law that adversely impact major Department programs and
operations, with emphasis on maximizing the recovery of public resources
and deterring future wrongdoing.
Performance Measures:                                      Accomplishments
5a. Achieve an annual acceptance rate of 74 percent for cases
    presented for prosecutorial consideration, with an enhanced        Exceeded Goal
    focus on Recovery Act cases.
5b. Ensure 75 percent of all cases opened focus on key areas of
    Department vulnerability, specifically procurement and             Exceeded Goal
    grant fraud, environmental violations, Qui Tams, or
    computer crimes.
            Audits and Inspections                           Investigations
5a.                (Not applicable)              The OIG achieved a prosecutorial
                                                 acceptance rate of 96 percent.
5b.                (Not applicable)              88 percent of all cases opened focused on
                                                 key areas of vulnerability in the
                                                 Department.



Objective 6:
Coordinate with other law enforcement agencies to establish effective
networks in order to identify areas that are most vulnerable to waste, fraud,
and abuse.
Performance Measures:                                       Accomplishments
6a. Ensure 25 percent of all cases opened were joint
    agency/task force investigations with external law                 Exceeded Goal
    enforcement agencies, such as the Federal Bureau of
    Investigation and other OIGs including other agencies with
    Recovery Act funding.
            Audits and Inspections                           Investigations
6a.                (Not applicable)               42 percent of all cases opened were joint
                                                  agency task force investigations.




                                                                                              6
Objective 7:
Heighten awareness of potential fraud among internal and external
customers.
Performance Measures:                                  Accomplishments
7a. Provide 40 fraud awareness briefings annually to
    Department and contractor employees and managers, with               Exceeded Goal
    special emphasis on Recovery Act-related fraud.
           Audits and Inspections                               Investigations
7a.                (Not applicable)                 86 fraud awareness briefings were
                                                    conducted in FY 2011.



                                      Goal 3
                                Support the Taxpayer
Objective 8:
Provide the Department and the public with an effective and efficient
mechanism to report waste, fraud, and abuse.
Performance Measures:                                   Accomplishments
8a. Operate the OIG Hotline in a manner that ensures 90
    percent of Hotline complaints warranting further action               Exceeded Goal
    begin processing within 7 days of receipt.
8b. Forward 90 percent of the complaints identified for
    referral to Department or other agency management within              Goal Not Meet
    14 days of initiation of the case.
8c. Complete Whistleblower complaints within 180 days.                      Met Goal
           Audits and                      Investigations                     Legal
           Inspections
8a.         (Not applicable)          95 percent of complaints            (Not applicable)
                                      began processing within 7
                                      days of receipt.
8b.         (Not applicable)          17 percent of complaints were       (Not applicable)
                                      referred to the Department
                                      within 14 days.

                                      On average, complaints were
                                      referred to the Department
                                      within 44 days.
8c.         (Not applicable)                 (Not applicable)         Met Statutory
                                                                      Requirements.




                                                                                             7
Objective 9:
Make the public aware of OIG reports.
Performance Measures:                                                    Accomplishments
9a. Ensure that all OIG public reports that are identified for
    inclusion on the Internet are posted within 3 working days               Met Goal
    of submission to the Secretary, unless otherwise specified
    by the Inspector General.
            Audits and                    Investigations                Management and
            Inspections                                                 Administration
9a.         (Not applicable)                (Not applicable)          Reports were posted to
                                                                      the Internet within 3
                                                                      working days or as
                                                                      specified by the Inspector
                                                                      General.



Objective 10:
Provide a structure for ensuring a skilled and efficient workforce.
Performance Measures:                                      Accomplishments
10a. Ensure that all auditors meet the training requirements as
     specified by generally accepted Government Auditing
     Standards and all inspectors meet the training                            Met Goal
     requirements as specified by the President’s Council on
     Integrity and Efficiency “Quality Standards for
     Inspections.
10b. Ensure that all investigators meet the training
     requirements as specified by Federal law enforcement and                  Met Goal
     other related investigative standards.
              Audits and Inspections                              Investigations
10a, b.   100 percent of the auditors and             100 percent of the investigators met their
          inspectors met the statutory requirement    training requirements including those
          for continuing education in FY 2011.        prescribed by statue.




                                                                                                   8
                   FY 2012 Performance Plan
Our work is important to the Department’s success in fulfilling its Strategic Plan to
address the energy, environmental, science, and nuclear security challenges and mission-
related goals. The OIG must ensure that its resources and activities cover the issues and
concerns most critical to the Department. This Performance Plan identifies the FY 2012
goals, objectives, and measures that will help the OIG plan its priorities and continue to
assist the Department in identifying and taking corrective action to improve areas most
vulnerable to waste, fraud, and mismanagement. This Performance Plan also describes
the specific projects and activities the OIG plans to undertake during FY 2012 to
continue identifying opportunities for cost savings and operational efficiencies, and to
continue to return hard dollars to the Department and the U.S. Treasury.

FY 2012 Performance Measures
For FY 2012, the OIG will measure its accomplishments against the following
performance measures:

                              Goal 1
    Promote Presidential Reform Initiatives, Secretarial Mission
                     Priorities, and Congress
Objective 1:
Conduct reviews seeking positive change in the Department relating to the
implementation of Presidential Reform Initiatives, the Secretary’s Mission
Priorities, and the OIG-identified Management Challenges.
Performance Measures:
1a. At least 75 percent of audit reports will address Presidential, Secretarial, and OIG
    initiative, priority, and/or challenge as identified in FY 2012.
1b. At least 30 percent of inspection reports will address safety or security-related topics.




                                                                                            9
                            Goal 2
Improve economy and efficiency, and reduce waste, fraud, and abuse
                    within the Department
Objective 2:
Concentrate OIG efforts on issues that have the greatest impact and usefulness
to the Department.
Performance Measures:
2a. Ensure that 100% of performance reviews includes an analysis of program
    accomplishments and the use of metrics to measure results.
2b. Ensure that 57 percent of performance audits include recommendations leading to
    demonstrable cost savings, program efficiencies, and/or funds put to better use.
2c. Complete five follow-up reviews annually to determine the status and efficacy of
    corrective actions.
2d. By June 30, 2012, complete an annual risk-based programmatic assessment that
    considers OIG institutional knowledge; past program performance; funding levels;
    Presidential, Secretarial, and congressional concerns; Recovery Act initiatives; and,
    input from Department program managers.
2e. Ensure 80 percent of planned performance audits and inspections address high-risk
    areas as identified in the OIG annual risk-based programmatic assessments.

Objective 3:
Provide timely information to the Department so that prompt action can be
taken to improve program performance.
Performance Measures:
3a. Issue 80 percent of audit and inspection reports no later than 60 days following receipt
    of management comments.
3b. Ensure that the average time to issue Investigative Reports to Management is 47 days or
    less following final resolution of criminal, civil, and administrative investigations.




                                                                                       10
Objective 4:
Strengthen financial management and cyber security through completion of
mandatory reviews in accordance with OMB and other applicable
requirements.
Performance Measures:
4a. Complete annually, by the established due date, the Department’s Consolidated
    Financial Statement audits to determine whether the financial statements are free from
    material misstatement.
4b. Complete annually, by the established due date, the review of the Department’s
    classified and unclassified information security system programs in accordance with
    the Federal Information Security Management Act of 2002.
4c. Initiate 10 “Statement of Costs Incurred and Claimed” audits annually to assess
    internal controls over costs claimed by the Department’s major contractors.

Objective 5:
Concentrate investigative efforts on allegations of criminal and civil
violations of law that adversely impact major Department programs and
operations, with emphasis on maximizing the recovery of public resources
and deterring future wrongdoing.
Performance Measures:
5a. Achieve an annual acceptance rate of 74 percent for cases presented for prosecutorial
    consideration, with an enhanced focus on Recovery Act cases.
5b. Ensure 75 percent of all cases opened focus on key areas of Department vulnerability,
    specifically contract and grant fraud, environmental, safety and health violations,
    issues impacting the integrity of government officials, or technology crimes.


Objective 6:
Coordinate with other law enforcement agencies to establish effective
networks in order to identify areas that are most vulnerable to waste, fraud,
and abuse.
Performance Measures:
6a. Ensure 26 percent of all cases opened were joint agency/task force investigations with
    external law enforcement agencies, such as the Federal Bureau of Investigation and
    other OIGs, including other agencies with Recovery Act funding.




                                                                                       11
Objective 7:
Heighten awareness of potential fraud among internal and external
customers.
Performance Measures:
7a. Provide 42 fraud awareness briefings annually to Department and contractor
    employees and managers and fund recipients, with special emphasis on Recovery
    Act-related fraud.


                                     Goal 3
                               Support the Taxpayer
Objective 8:
Provide the Department and the public with an effective and efficient
mechanism to report waste, fraud, and abuse.
Performance Measures:
8a. Ensure that the average time to analyze and predicate Hotline complaints is 6 days or
    less from receipt of allegations.
8b. Ensure that the average time to refer Hotline complaints to the Department or other
    agency management is 16 days or less following a referral decision.
8c. Meet statutory Whistleblower Retaliation Investigation requirements.


Objective 9:
Make the public aware of OIG reports.
Performance Measures:
9a. Ensure that all OIG public reports that are identified for inclusion on the Internet are
    posted within 3 working days of submission to the Secretary, unless otherwise
    specified by the Inspector General.

Objective 10:
Provide a structure for ensuring a skilled and efficient workforce.
Performance Measures:
10a. Ensure that all auditors meet the training requirements as specified by generally
     accepted Government Auditing Standards and that all inspectors meet the training
     requirements as specified by the Council of the Inspectors General on Integrity and
     Efficiency for Inspection and Evaluation.
10b. Ensure that all investigators meet the training requirements as specified by Federal
     law enforcement and other related investigative standards.




                                                                                         12
                            Our Organization
The OIG is organized into two major functional areas and a corporate support office:
       Office of Audits and Inspections
       Office of Investigations
       Office of Management and Administration


Office of Audits and Inspections
Audits
The Office of Audits (Audits) provides internal and contracted audit activities for
Department programs and operations, including the National Nuclear Security
Administration (NNSA). Audits strives to provide reliable, credible financial and
performance information to senior management, the Congress, and the taxpayers.
Audits is organizationally aligned with the Department’s programmatic lines in national
security and science; energy; and environment, technology, corporate and financial
operations. Audits will concentrate its efforts on economy, efficiency and program
reviews, while maintaining sound oversight of the financial statement audit. This
organizational structure helps to ensure that audit work provides comprehensive
coverage over Department organizations, programs, and operations while meeting the
Department's evolving needs.

With the passage of the Recovery Act, the oversight responsibilities for Audits
dramatically increased. The Department received approximately $38 billion in
Recovery Act funding for various energy, environmental, and science programs and
initiatives. To protect the interests of the American taxpayers and ensure accountability
and transparency, Audits will continue to devote a significant amount of audit resources
to fulfill its Recovery Act oversight responsibilities.

Audits uses a risk-based process for identifying areas for audit coverage. Specific areas
with known or emerging risks and the greatest vulnerabilities are identified. This
process leads to conducting program performance reviews that address the President's
Management Agenda; the Secretary’s Mission Priorities; OIG-identified management
challenges; as well as Congressional interests. A significant portion of audit resources is
directed toward meeting OIG statutory audit responsibilities in the financial and
information technology areas.

Audits has scheduled 112 performance audits to start in FY 2012. Many non-
discretionary tasks from external sources impact the workload and may require
postponement or cancellation of planned audits to accommodate these demands. The
planned audit workload for FY 2012 is summarized in Appendix A.

                                                                                         13
Inspections
The Office of Inspections (Inspections) conducts performance, allegation-based and
ad-hoc inspections, as well as special inquiries in response to concerns raised by
Congress, senior Department managers, and others.

Although Inspections plans a significant portion of its annual inspection work, it retains
flexibility so that it can promptly address concerns and allegations received during the
course of the year. When planning its performance inspection work, Inspections
identifies and prioritizes topics responsive to the Presidential Reform Initiatives, the
Secretary’s Mission Priorities, and the Department’s Management Challenges identified
by the OIG. Inspections are initiated with consideration given to their significance and
potential impact on Department programs and operations.

In light of the heighten concerns over homeland security, Inspections is focusing its
resources to address critical safety and security issues affecting Department programs
and operations. The planned inspection workload for FY 2012 is summarized in
Appendix A.


Office of Investigations
The Office of Investigations (Investigations) conducts investigations into alleged
violations of law that impact Department programs, operations, facilities and personnel.
Priority is given to investigations of suspected violations of criminal and civil statutes,
as well as serious administrative misconduct. Criminal Investigators within
Investigations work closely with Department of Justice (DOJ) prosecutors and other
Federal, State, and local law enforcement organizations utilizing a full range of law
enforcement authorities, such as carrying firearms, applying for and executing search
warrants and making arrests. The work of Investigations, however, extends beyond the
conduct of investigations – namely, the office identifies opportunities for improving the
economy and efficiency of Departmental programs and operations by issuing reports
that recommend positive change. Investigative accomplishments are measured by cases
opened in the areas most vulnerable to fraud, investigations accepted for prosecutive
action, cooperative efforts with other law enforcement agencies, the timeliness of
referrals and recommendations to management, and proactive initiatives. Through
accomplishments in those areas, Investigations plays a major role assisting the OIG in
promoting the efficient, effective and economical operation of the Department, including
NNSA.




                                                                                         14
National Program Area Initiative
The work performed by Investigations is primarily reactive in nature and has the
potential of reaching into any Departmental major program area, including NNSA. The
establishment of the National Program Area Initiative has afforded Investigations the
opportunity to identify program areas in the Department most vulnerable to fraud, waste,
and abuse and to proactively dedicate a significant portion of investigative resources, to
include special agent training, liaison development, and specialized studies, to those
program areas. The National Program Area Initiative concentrates on four areas, which
are also tied into the Department’s strategic themes. The four areas are: (1) contract and
grant fraud; (2) environment, safety, and health violations; (3) issues impacting the
integrity of government officials; and (4) technology crimes. One of Investigation’s
goals is to have 75 percent of its open investigations address at least one of the four
areas. In FY 2012, work on the National Program Area Initiative will continue to move
forward as plans are implemented and expanded.

Contract and Grant Fraud

During FY 2011, Investigations continued to identify and interact with key Department
and NNSA procurement personnel, as well as conduct fraud awareness briefings with
special emphasis on contract and grant fraud. A majority of the Department’s budget is
expended on contracts and grants; therefore, the opportunity for fraud to occur or exist
within various Department programs is significant. Given the continuing potential for
significant fraud, to include potential fraud in the Department’s Loan Guarantee
Program, and the Department’s responsibility to oversee the continuing execution of
Recovery Act funded programs, in FY 2012, Investigations will continue to: (1) expand
fraud awareness briefings throughout the Department, including NNSA, with special
emphasis on Recovery Act matters; (2) prioritize contract and grant fraud investigations,
placing emphasis on cases with a potential high dollar recovery to the Department; (3)
work with established contract and grant task forces, and identify opportunities to
establish new task forces with DOJ involvement; (4) coordinate and pursue leads
referred by the OIG Office of Audits and Inspections; and (5) proactively identify and
pursue contract and grant fraud investigations, with a focus on Recovery Act matters.

Environment, Safety, and Health (ES&H)
The Department’s program for cleaning up the environmental contamination caused by
nuclear weapons research, production and testing is estimated to cost over $200 billion
over the next several decades. With the end of the Cold War, the mission to clean up the
environment has become more essential as a result of more than 50 years of nuclear
defense work and energy research. The OIG has identified environmental cleanup as a
Department Management Challenge that is likely to persist well into the future.
Investigation’s ES&H program area supports the Department’s clean energy
technologies strategic theme. Ensuring the safety and health of the public and the
Department’s workers is a top priority. In FY 2012, Investigations will continue to:


                                                                                        15
(1) work with established ES&H task forces; (2) identify opportunities to establish new
task forces; and (3) develop and maintain ES&H contacts in the Department, NNSA,
and other Government agencies.

Issues Impacting the Integrity of Government Officials

Government officials have a responsibility to maintain the public's trust and confidence
in the integrity of the Federal Government programs and operations. The Department
employs over 15,000 Federal employees and about 110,000 contractor employees. The
Department also owns and manages over 50 major installations in 35 states around the
country and has a budget of $26.4 billion. In FY 2012, based on information received
through the OIG Hotline and our interaction with Department officials through fraud
awareness briefings and other meetings, Investigations will continue to work with DOJ
to address the actions of government officials, which may be criminal in nature or may
have resulted in fraud, waste, abuse and mismanagement.

Technology Crimes
Information technology, another of the Department’s major issue areas, received a
significant amount of Investigations’ resources and attention during FY 2011.
Investigations’ Technology Crimes Section (TCS) is staffed by investigators with the
specialized skills necessary to proactively and reactively investigate the expanding
number of complex technology crimes that are occurring within many of the
Department’s programs. TCS further strengthens Investigations’ support to the
Department, including NNSA, in detecting, preventing and investigating illegal network
intrusions. TCS forms a critical part of Investigations’ ability to combat fraud, waste
and abuse given the increased risks and vulnerabilities associated with security breaches,
computer systems intrusions, virus attacks, and employee misuse. During FY 2012,
TCS will: (1) continue to proactively support fraud investigations through consultations
and forensic media analysis; (2) investigate incidents of technology crimes and non-
compliance with applicable regulations involving protection of the information
infrastructure throughout the Department; (3) extend Investigations’ role in technology
incident response and investigations in the Department; and (4) provide technology
crimes awareness briefings throughout the Department complex.

Proactive Work
Traditionally, Investigations’ response to allegations of wrongdoing has been reactive in
nature. However, Investigations has succeeded in implementing a process that
streamlined and formalized proactive case development with a targeted approach
designed to ensure more efficient and effective use of resources. In FY 2012,
Investigations will continue its pursuit of proactive initiatives designed to effect positive
change within the Department and enhance Investigations’ ability to meet organizational
goals and objectives. Close attention will be paid to Investigations’ infrastructure needs
to ensure adequate skills, tools, and processes are in place to respond promptly and
appropriately to emerging priority issues identified by the President, Secretary, Congress

                                                                                           16
and the public. Partnerships with other established law enforcement agencies, Federal
and state agencies, Department managers and employees will be expanded and
productive sources of information will be further cultivated.




                                                                                        17
 Appendix A
                              Fiscal Year 2012
                        Planned Audits and Inspections

                                          Audits

American Recovery and Reinvestment Act

    Research and Development Program for the Office of Electricity Delivery and Energy
    Reliability (OE)
    Energy Efficiency & Renewable Energy (EERE) Biomass and Biorefinery Projects
    Workforce Development for the Electric Power Sector
    The Department of Energy’s (Department) Water Power Program
    Interconnection Transmission Planning Program
    Loan Guarantee Program's Use of Financial Institutions
    EERE Hydrogen and Fuel Cell Technologies Program
    Office of Fossil Energy's Clean Coal Power Initiative Round III
    Office of Fossil Energy's Industrial Carbon Capture & Storage Technologies
    Program Review of the Department's Solid State Lighting Program
    Energy Efficiency and Conservation Block Grant Program
    State Energy Program
    Weatherization Assistance Program
    Small Businesses Awards under the Recovery Act
    Industrial Technology Projects to Develop Renewable Industrial Energy Sources (Landfill
    to Gas Projects and Waste to Gas Projects)
    Restructured FutureGen Project
    Demolition of the K-33 Building at East Tennessee Technology Park
    Hydrogen Energy California Project
    Office of Science Climate Program

Central Division

    Energy Innovation Hubs
    Commercialization Efforts at National Laboratories
    Bioenergy Research Centers
    Cooperative Research and Development Agreements at National Nuclear Security
    Administration (NNSA) National Laboratories
    Management of Minimum Efficiency Standards
    Bonneville Power Administration (BPA) Wind Integration
    Auditing Requirements of For-Profit Recipients of Federal Assistance
    Cooling Load Management and Optimization

                                                                                              18
    Product Substitution
    Utility Incentive Programs
    Research and Development Program for Nuclear Energy (NE)

Eastern Division

    Contract Awards Made to Tax Delinquent Contractors
    Follow-up Audit on Controls over the Department’s Performance Measures
    Use of Time-and-Materials Contracts
    Management of Overhead Costs at Environmental Management
    (EM) Sites
    Follow-up on Term Assignments of Contractors
    The External Independent Review Process over Project Management at the Department
    Water Management Program
    Follow-up Audit of Department’s Pollution Prevention Programs
    Management of Energy-Related Research and Development Activities
    EERE’s Auditing Requirements of For-Profit Recipients of Federal Assistance
    Program Management at Paducah
    Office of Legacy Management
    EM’s Activities at Small Sites
    Safeguards Over Wet Storage of Spent Nuclear Fuel
    Advanced Recovery and Integrated Extraction System (ARIES)
    EM’s Consolidated Business Center
    Special Nuclear Materials Storage Consolidation
    Performance Management and Fee Determination at the Savannah River Site (SRS)
    Impact of New Strategic Arms Reduction Treaty on Tritium Needs
    Management of Los Alamos National Laboratory's (LANL) Information Technology
    Program
    The Department’s Cyber Security Incident Management Program
    Management of Naval Reactors' Information Technology Program
    Management of Western Area Power Administration's Information Technology Program
    System Development Efforts at the NNSA
    The Department’s iPortal System
    Cyber Security Continuous Monitoring Process
    Controls Over Access to Classified Information & Media at the Oak Ridge Reservation
    Management of the NNSA Office of Secure Transportation's Transportation Command
    and Control System
    Implementation of the Federal Information Security Management Act (FISMA)
    Federal Energy Regulatory Commission's (FERC) Implementation of FISMA




                                                                                          19
Western Division
    Configuration Management at the NNSA National Laboratories
    Global Threat Reduction Initiative Removal and Protection Programs
    NNSA’s Dynamic Materials Properties
    Follow-up Audit of Sandia National Laboratories Nuclear Weapons Safety Program
    NNSA's Engineering Campaign
    NNSA's Mitigation of Natural Disasters at its Facilities
    NNSA’s Facilities and Infrastructure Recapitalization Program
    Performance of the Naval Reactors Advanced Research and Development Programs
    EM's Transuranic Waste Disposition Goals
    NE Fuel Cycle Research & Development Program
    National Security and Work for Other Federal Agencies at the Idaho National Lab (INL)
    Pit Production Capability
    Radioactive Liquid Waste Treatment Operations at LANL
    Chemical and Metallurgical Research Building Replacement Project
    Follow-up Audit of the Los Alamos Neutron Science Center
    NNSA's Materials Protection, Control & Accounting Program
    Follow-up of NNSA's Enhanced Surveillance Campaigns
    Managing & Operating (M&O) Contractors’ Defined Pension Plans
    NNSA M&O Contractors' Incentivized Cost Savings Claims
    NNSA Contractors' Health Benefit Plans
    Atmospheric Release Monitoring Capabilities
    Utilization of Lawrence Livermore National Laboratory Institutional Centers
    Kansas City Responsive Infrastructure Manufacturing and Sourcing
    NNSA's Dismantlement Program
    Follow-up Audit on the Criticality Experiment Facility at the Nevada National Security Site
    High Explosive Pressing Facility Project
    Tank Waste Feed Delivery System Readiness at the Hanford Site
    Quality Assurance: Design Control for the Waste Treatment Plant at the Hanford Site
    Use of the Environmental Molecular Science Laboratory
    EM Land / Footprint Reduction
    Domestic Material Protection
    Uranium Processing Facility Project at the Y-12 National Security Complex
    Nuclear Weapons Programs Heavy Water Inventory Follow-Up
    Spallation Neutron Source at Oak Ridge National Lab (ORNL) Follow-Up




                                                                                                  20
Government Management Reform Act (GMRA)

    The Department’s Consolidated Financial Statement Audit FY 2012
    FERC's Financial Statement Audit FY 2012
    Decommissioning and Decontamination Fund FY 2012 GMRA
    Southwestern Power Administration Financial Statement Audit FY 2012
    Nuclear Waste Fund FY 2012
    The Department’s Improper Payment Reporting in the Fiscal Year 2012 Annual Financial
    Report
    Information Technology Management Letter FY 2012
    Financial Management Letter FY 2012

Statement of Costs Incurred and Claimed (SCIC)

    LANL - Los Alamos National Security LLC 2010 SCIC
    ORNL - UT Battelle LLC 2011 SCIC
    Sandia National Laboratories - Lockheed Martin 2011 SCIC
    Lawrence Livermore National Laboratory - Lawrence Livermore National Security
    LLC 2011 SCIC
    SRS - Savannah River Nuclear Solutions 2010 SCIC
    Pacific Northwest National Laboratory - Battelle Memorial Institute 2010 SCIC
    Naval Reactors - Bechtel Marine Propulsion Corporation 2011 SCIC
    Oak Ridge Y-12 - Babcock & Wilcox Y-12 LLC 2010 SCIC
    INL - Battelle Energy Alliance LLC 2011 SCIC
    Lawrence Berkeley National Laboratory - The Regents of University of California 2011 SCIC
    Brookhaven National Laboratory - Brookhaven Science Associates LLC 2008-2011 SCIC
    Fermilab - FERMI Research Alliance 2008-2011 SCIC
    Strategic Petroleum Reserve - Dyn-McDermott Petroleum Operations 2009-2011 SCIC
    Advanced Mixed Waste Treatment Plant - BWXT Idaho 2011 SCIC
    Waste Isolation Pilot Plant - Washington TRU Solutions 2008-2011 SCIC
    Nevada Test Site - National Security Technologies 2008-2011
    Kansas City Plant - Honeywell 2009-2011 SCIC
    Bechtel Jacobs LLC FY 2011

                                          Inspections

Safety

    Safety Risks to Workers and the Environment at SRS
    Review of the Evaluation of Health and Safety Risks at a Selected Department Site(s)
    Inspection of the Waste Receiving and Processing Facility (WRAP) at the Hanford Site
    Hazardous Materials and Safety Training at LANL
    Waste Characterization Strategy at LANL



                                                                                           21
Security

    Review of Classification Program at a Selected Department Site
    Lock and Key Program at Selected Department Sites
    ORNL Implementation of DOE O 142.3, Unclassified Foreign Visits and Assignments
    Program
    Management of the Intrusion Detection and Assessment Systems at Department Sites
    Management of Excess Weapons Inventories and Select Sensitive Equipment
    Protective Force Weapon System Maintenance and Accountability
    Homeland Security Presidential Directive 12 Upgrades at a Selected NNSA Site(s)
    Protective Force Weapons Management at the Pantex Plant

Corporate Management
    Purchase Card Review at Selected Sites
    Water Management Program
    Deferred Maintenance and Repair at the SRS
    Education Assistance Program at a Department Site
    BPA Government Credit Card Usage
    Inspection of an EM Construction Project For Issues Relating to Improper Payments

Implementation Reviews
    Follow-up Inspection on Characterization Wells at LANL
    Follow-up Drug Testing for Security Positions at Portsmouth and Paducah Sites
    Follow-up on Material Control and Accountability at LANL
    Follow up Inspection on Management of Facility Contractors Assigned to the Washington,
    D.C. Area




                                                                                             22
